                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION



                Audit of the Nuclear Regulatory Commission’s
                        FY 2003 Financial Statements

                      OIG-04-A-03     December 17, 2003




                       AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                            December 17, 2003




MEMORANDUM TO:               Chairman Diaz



FROM:                        Hubert T. Bell/RA/
                             Inspector General


SUBJECT:                     RESULTS OF THE AUDIT OF THE U.S. NUCLEAR
                             REGULATORY COMMISSION'S FISCAL YEAR 2003 FINANCIAL
                             STATEMENTS (OIG-04-A-03)


Attached is the independent auditors’ report, issued by R. Navarro & Associates, Inc., on the
U.S. Nuclear Regulatory Commission's (NRC) financial statements for the years ended
September 30, 2003 and 2002. The Chief Financial Officers Act of 1990 requires the Inspector
General (IG) or an independent external auditor, as determined by the IG, to annually audit
NRC’s Principal Financial Statements. The report contains: (1) the principal statements and
the auditors’ opinion on those statements; (2) the opinion on management’s assertion about the
effectiveness of internal controls; and (3) a report on NRC’s compliance with laws and
regulations. Written comments were obtained from the Chief Financial Officer (CFO) and are
included as an appendix to the report.

Audit Results

The independent auditors issued an unqualified opinion on the balance sheet and the
statements of net cost, changes in net position, budgetary resources, and financing.

In the report on management’s assertion about the effectiveness of internal controls, the
auditors concluded that management’s assertion is fairly stated. The auditors identified three
new reportable conditions and one prior-year reportable condition which remains resolved.
Additionally, one prior-year reportable condition was closed. The new conditions concern
information systems security access, monitoring of accounting for internal use software, and
managerial cost accounting.

The report on NRC’s compliance with laws and regulations disclosed one prior-year
noncompliance. NRC’s 10 CFR Part 170 hourly rates are not based on full cost.
Chairman Diaz                                  -2-

Performance Reporting

As required by Office of Management and Budget Bulletin No. 01-02, Audit Requirements for
Federal Financial Statements, with respect to internal control related to performance measures
determined by management to be key and reported in the Management’s Discussion and
Analysis, we obtained an understanding of the design of significant internal controls relating to
the existence and completeness assertions. Our procedures were not designed to provide
assurance on internal control over performance measures and, accordingly, we do not provide
an opinion thereon.

Comments of the Chief Financial Officer

The CFO generally agreed with the auditors’ recommendations and stated that corrective action
has been taken or is underway. We will follow-up on the CFO’s corrective action during
FY 2004.

The independent auditors’ management letter providing observations on ways to strengthen
internal controls and operating efficiency will be sent separately.

We appreciate NRC staff's cooperation and continued interest in improving financial
management within NRC.

Attachment: As stated

cc:    Commissioner McGaffigan
       Commissioner Merrifield
R. McOsker, OCM/RAM
B. Torres, ACMUI
B.J. Garrick, ACNW
M. Bonaca, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
W. Travers, EDO
E. Merschoff, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDH/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
J. Dyer, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, NMSS
S. Collins, DEDR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
R. Wessman, IRO
H. Miller, RI
L. Reyes, RII
J. Caldwell, RIII
B. Mallett RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
         U.S. NUCLEAR REGULATORY COMMISSION




INDEPENDENT AUDITORS’ REPORT AND PRINCIPAL STATEMENTS
       FOR THE YEARS SEPTEMBER 30, 2003 AND 2002




               R. NAVARRO & ASSOCIATES, INC.
                                     TABLE OF CONTENTS



Management’s Discussion and Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Independent Auditors’ Unified Report on the Principal Statements;
      Management’s Assertion About the Effectiveness of Internal Control; and
      Compliance with Laws and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

Financial Statements, Accompanying Notes and
      Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


Chief Financial Officers’ Response to the Auditors’ Report . . . . . . . . . . . . . . . . . . . . 45
MANAGEMENT’S DISCUSSION AND ANALYSIS

INTRODUCTION
This Performance and Accountability Report represents the culmination of the U.S. Nuclear
Regulatory Commission’s (NRC) program and financial management processes, which began with
mission and program planning, continued through the formulation and justification of NRC’s budget
to the President and the Congress, through budget execution, and ended with this report on our
program performance and use of the resources entrusted to us. This report was prepared pursuant
to the requirements of the Chief Financial Officers Act, as amended by the Reports Consolidation
Act, and covers activities from October 1, 2002, to September 30, 2003.

Chapter 1, Management’s Discussion and Analysis, provides a high-level overview of the NRC. It
consists of six sections: About the NRC describes the agency’s mission, organizational structure,
and regulatory responsibility; Future Challenges includes forward-looking information; Program
Performance Overview discusses the agency’s success in achieving its strategic goals; President’s
Management Agenda describes the agency progress in “Getting to Green” for the five management
initiatives; Financial Performance Overview provides highlights of the NRC’s financial position and
audit results; and Systems, Controls, and Legal Compliance describes the agency’s compliance
with key legal and regulatory requirements.
ABOUT THE NRC
The NRC was established on January 19, 1975, as an independent Federal agency to regulate
various commercial and institutional uses of nuclear materials. The NRC’s purpose is defined by
the Atomic Energy Act, as amended, and the Energy Reorganization Act, as amended. These acts
provide the foundation for regulating the Nation’s civilian uses of nuclear materials.
Organization
The NRC is headed by a Commission composed of five members, with one member designated
by the President to serve as Chairman. Each member is appointed by the President, with the
advice and consent of the Senate, and serves a term of 5 years. The Chairman serves as the
principal executive officer and official spokesman for the Commission. The chief operating officer
is the Executive Director for Operations who carries out the program policies and decisions made
by the Commission.
The NRC’s headquarters offices are located in Rockville, Maryland. Four regional offices are
located in King of Prussia, Pennsylvania; Atlanta, Georgia; Lisle, Illinois; and Arlington, Texas; and
a technical training center is located in Chattanooga, Tennessee. The NRC’s Operations Center
is the focal point for NRC communications with its licensees, State agencies, and other Federal
agencies concerning operating events in the commercial nuclear sector. The Operations Center
is staffed 24 hours a day by NRC operations officers. The NRC also has resident inspector offices
at each commercial nuclear power plant.




                                                  1
MANAGEMENT’S DISCUSSION AND ANALYSIS

The NRC’s budget for fiscal year (FY) 2003 was $584.6 million and 2,906 full-time equivalent
staff. The FY 2002 budget was $558.6 million and 2,842 full-time equivalent staff. The NRC is a
fee-based agency that recovers most of its funding from fees paid by NRC licensees.
Approximately 47 percent of the budget and 54 percent of the staff are for reactor safety.




Regulatory Responsibility
To fulfill its responsibility to protect the public health and safety, the NRC performs three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses for nuclear facilities
and users of nuclear materials, and (3) inspect facilities and users of nuclear materials to ensure
compliance with regulatory requirements. These regulatory functions relate to both nuclear power
plants and other civilian uses of nuclear materials, such as nuclear medicine programs at hospitals;
academic activities at educational institutions; research work; industrial applications, such as
gauges and testing equipment; and the transport, storage, and disposal of nuclear materials and
wastes. The NRC has aligned its regulatory programs into the following four strategic arenas.
Nuclear Reactor Safety encompasses all NRC efforts to ensure that civilian nuclear power reactor
facilities, as well as test and research reactors, are operated in a manner that adequately protects
public health and safety and the environment, and that safeguards special nuclear materials used
in reactors.
Nuclear Materials Safety encompasses NRC efforts to ensure that nuclear fuel cycle facilities; and
academic, industrial, and medical uses of nuclear materials are handled in a manner that
adequately protects public health and safety and the environment, and protects against radiological
sabotage and theft or diversion of special nuclear materials.
Nuclear Waste Safety encompasses NRC efforts to ensure that the decommissioning of nuclear
reactors and other facilities, storage of spent nuclear fuel, transportation of radioactive materials,
and disposal of radioactive wastes are handled in a manner that adequately protects public heath
and safety and the environment, and protects against radiological sabotage and theft or diversion
of special nuclear materials.
International Nuclear Safety Support encompasses international nuclear safety and regulatory
policy formulation, import-export licensing for nuclear materials and equipment, treaty
implementation, and international information exchange.




                                                   2
MANAGEMENT’S DISCUSSION AND ANALYSIS
NRC also carries out a corporate management and support function for information technology,
financial management, human resources, and other support functions. Efforts in this area are
aligned with the President’s Management Agenda and focus on the five Governmentwide initiatives
aimed at improving agency management.
 Approximately 20 percent of the Nation’s electricity is generated by 104 commercial nuclear
reactors which are licensed by the NRC to operate in 31 States. Since 1991, nuclear electric
generation has increased by 21 percent. The NRC expends over 330,000 hours of inspection effort
at 104 operating reactors and licenses
approximately 4,500 reactor operators.
The NRC oversees approximately 4,800 licenses
for medical, academic, industrial, and general uses
of nuclear materials. The NRC conducts
approximately 1,100 health and safety inspections
of its nuclear materials licensees annually.
Additionally, approximately 16,600 licenses are
administered by the 33 States that participate in
the Agreement States Program, which authorizes
the State to regulate the use of radioactive
materials within that State. The NRC, Agreement
States, and their licensees share a common
responsibility to protect public health and safety.
The NRC places a high priority on keeping the
public fully informed of its activities. Visit our Web
site at www.nrc.gov to learn more about who we
are and what we do to serve the American people.




FUTURE CHALLENGES
The Commission is focused on addressing a number of significant challenges that will have long-
term impact on accomplishment of its mission. The ongoing terrorism threat requires that the NRC
invest significant resources on homeland security-related activities. In addition, the NRC needs
to review applications from industry in preparation for the possibility of new applications to construct
nuclear power plants. A third major challenge is preparing for a potential license application for a
high-level waste repository.
Homeland Security
Few areas of nuclear regulation have undergone as much change as the area of security since the
terrorist attacks on September 11, 2001. To deal with initial concerns about the increased threat
in the wake of those attacks, the NRC issued advisories and orders to its licensees and participated
in many Federal ad hoc and standing committees and task groups to enhance National response
and international decisions. The agency continues to work to strengthen relationships among the



                                                   3
MANAGEMENT’S DISCUSSION AND ANALYSIS
various Federal, State, and local agencies, including the new Department of Homeland Security
(DHS), that have assumed responsibility for protecting nuclear facilities and activities and
responding to incidents when they occur.
The primary challenge facing the NRC in the coming years is to emerge from this period of
temporary measures, determine what long-term security provisions are necessary, and revise its
regulations, security enhancements, orders and internal procedures to ensure public health and
safety and the common defense and security in the elevated threat environment. In particular, the
NRC will focus its efforts on the following activities:
   # Complete the identification of vulnerabilities at licensed facilities.
   # Revise requirements to provide additional protection where needed.
   # Explore improved methods of communicating sensitive information to licensees.
   # Enhance controls on high-risk radiation sources.
   # Develop more formal, long-term relationships with Federal, State, and local
     organizations with shared responsibilities for protecting nuclear facilities and activities.
The NRC may also be called upon to expand its role in international activities related to the security
of nuclear materials and facilities. Today, the agency participates in the formulation of foreign policy
guidance and shares with the U.S. Department of Energy (DOE) the responsibility for providing
international assistance in nuclear safety and safeguards. The agency also reviews applications
and issues import and export licenses for nuclear materials and equipment. The heightened level
of attention to these types of activities may affect the NRC’s security strategies over the next
several years. The NRC’s involvement with the International Atomic Energy Agency( IAEA) on
nuclear safeguards, non-proliferation, and international regulatory standards is also likely to be
affected.
The agency has contributed significantly to integrated efforts to protect against terrorist attacks on
American interests. The NRC is maintaining state-of-the-art expertise in matters of both domestic
and international security.
Nuclear Power and National Energy Needs
The question of where and how the United States will obtain the energy it needs, now and in the
decades to come, is a matter of national importance. The availability and price of energy continues
to play a crucial role in determining the quality of life for Americans now. Nuclear power currently
supplies 20 percent of U.S. electricity needs. The President’s National Energy Policy has cited
nuclear power as a vital component of America’s energy portfolio.
The NRC’s mission is to ensure the adequate protection of the public health and safety in the use
of nuclear materials. The NRC also has an obligation to fulfill its regulatory responsibilities without
imposing unnecessary burdens on the industry. The challenge is to allow for innovation and
improvements by operators in utilizing their power generation facilities while ensuring that the focus
on safety remains the first priority in the use of nuclear power.
Compared to the operating record at the beginning of the 1990s, nuclear power plants today are
more efficiently run, with fewer outages and greater reliability. In less than a decade, average
capacity utilization in the industry has increased from 70 percent to 92 percent in 2002. (FY 2003
data will be available in mid-FY 2004.) At the same time, objective measures of safety performance
have also shown considerable improvement. The growth in demand for electric power, improved
economic fundamentals for nuclear power generation, and concerns about the supply of energy


                                                   4
MANAGEMENT’S DISCUSSION AND ANALYSIS
from other sources and their environmental impact have increased electric utilities’ interest in
building and operating new nuclear power plants. The NRC is currently reviewing three design
certification applications and expects to receive one additional application in the next year. Two
early site permit applications have been received with one more expected in early FY 2004. The
NRC has been putting in place the necessary regulatory processes to review an application for a
new plant and to monitor its construction. The NRC must meet the challenge of keeping pace with
industry plans and schedules for new reactor licensing activities, including early site permit reviews,
design reviews, and enhancement to the regulatory infrastructure.
Nuclear Waste
Radioactive waste is a byproduct of generating nuclear power. In April 2002, the President
accepted the Secretary of Energy’s recommendation that the Yucca Mountain, Nevada, site be
developed as a potential repository for the disposal of high-level nuclear wastes and spent nuclear
fuel. In July 2002, Congress approved a resolution of siting approval, which authorizes DOE to
apply to the NRC for a license to operate Yucca Mountain as a nuclear waste repository. The NRC
will play a critical role in ensuring that any repository built at Yucca Mountain provides for the long-
term safety of the surrounding environment and public health. The agency’s activities, in
anticipation of DOE’s operating license application, began to scale up in FY 2003. The NRC also
issued the final Yucca Mountain Review Plan (YMRP), describing the information that the NRC is
to review in the license application, as well as the criteria for determining whether issues have been
satisfactorily addressed. The NRC expects DOE to file its license application in late 2004. In
FY 2003, the NRC published a final rule which addresses unlikely events for the proposed Yucca
Mountain repository that can be excluded from certain required assessments due to their low
probability of occurrence.
PROGRAM PERFORMANCE OVERVIEW
Federal agencies provide an annual performance plan to Congress, setting goals with measurable
target levels of performance based on the Government Performance and Results Act (GPRA). The
NRC evaluates its program performance within a structured planning, budgeting, and performance
management (PBPM) process. As such, NRC has organized its strategic goals, performance goals,
and strategies for achieving its mission into four strategic arenas. Our highest priority is safety, and
our strategic goals focus on the achievement of this priority. NRC’s FY 2000-2005 Strategic Plan
is available on its Web site at www.nrc.gov. The complete FY 2003 Performance Report, with
strategic goal measures, is contained in Chapter 2: Program Performance.
Nuclear Reactor Safety
Strategic Goal: Prevent radiation-related deaths and illnesses, promote the common defense
and security, and protect the environment in the use of civilian nuclear reactors.
The NRC regulates 104 civilian nuclear power reactors licensed to operate and 36 non-power
reactors. During FY 2002 and 2003, the NRC met all five of the strategic goal measures for this
arena.
For the past year, the NRC met or exceeded all established schedules for license renewal activities.
This is significant given the interest by our licensees whose licenses need to be renewed to
continue operations. In addition, during FY 2003 NRC approved 17 requests from licensees for
power uprates, which increase the electrical generating capacity of the licensees’ nuclear reactor
power plants. To date, the NRC has approved 99 requests from licensees for power uprates.
Approval of power uprates has resulted in an electrical generating capacity gain equivalent to
approximately three large nuclear power plants. New reactor licensing activities during FY 2003


                                                   5
MANAGEMENT’S DISCUSSION AND ANALYSIS
included the receipt of two reactor design review applications and two early site permit applications.
To promote common defense and security, NRC took significant actions requiring licensees to
enhance the already robust security at nuclear power plants and other sensitive facilities.
Nuclear Materials Safety
Strategic Goal: Prevent radiation-related deaths and illnesses, promote the common defense
and security, and protect the environment in the use of source, byproduct, and special nuclear
material.
The NRC has regulatory oversight for 42 fuel cycle facilities, including eight major fuel cycle
facilities and two gaseous diffusion plants. This strategic arena also includes oversight of
approximately 20,000 specific and 150,000 general licenses regulated by the NRC and the 33
Agreement States. During FY 2002 and 2003, the NRC met all five of its strategic goal measures
for this arena.
In addition to achieving our strategic goal measures, it is noteworthy to describe the NRC’s
progress in reviewing application submissions from the Duke, Cogema, Stone & Webster (DCS)
to construct a mixed-oxide (MOX) fuel fabrication facility on the DOE’s Savannah River site near
Aiken, South Carolina. The proposed use of MOX fuel is part of a national non-proliferation effort
to dispose of surplus weapons-grade plutonium by irradiating it in existing commercial light-water
reactors. The NRC completed and issued a draft environmental impact statement (EIS) in
February 2003. Then, in March 2003, the NRC held public meetings throughout the area
surrounding the site to facilitate public comments on the draft EIS. In April 2003, the NRC issued
a revised draft safety evaluation report that documents the NRC’s review of the revised
construction authorization request submitted by DCS on October 31, 2002.
Nuclear Waste Safety
Strategic Goal: Prevent significant adverse impacts from radioactive waste to the current and
future public health and safety and the environment, and promote the common defense and
security.
Nuclear Waste Safety encompasses regulatory activities associated with the decommissioning of
nuclear reactors and other facilities, storage of spent nuclear fuel, transportation of radioactive
materials, and disposal of radioactive waste. For FY 2002 and 2003, the NRC met all four of its
strategic goal measures for this arena.
Over the past few years, the NRC has continued to build and refine the regulatory framework for
evaluating the license application for the proposed Yucca Mountain repository. In FY 2003, the
NRC published a final rule which addresses unlikely events for the proposed Yucca Mountain
repository that can be excluded from certain required assessments due to their low probability of
occurrence.
Also in FY 2003, the NRC issued the YMRP, an important companion to the rules in 10 Code of
Federal Regulations (CFR) Part 63. The YMRP describes the information that the NRC is to review
in the license application, as well as the criteria for determining whether issues have been
satisfactorily addressed. The NRC expects DOE to file its license application in late 2004.
International Nuclear Safety Support
Strategic Goal: Support U.S. interests in the safe and secure use of nuclear materials and in
nuclear nonproliferation.



                                                  6
MANAGEMENT’S DISCUSSION AND ANALYSIS
This arena encompasses international nuclear policy formulation, export-import licensing for
nuclear materials and equipment, treaty implementation, nuclear proliferation deterrence,
international safety assistance, and safeguards support and assistance. All three measures
established for this arena were met in FY 2002 and in FY 2003.
During FY 2003, the NRC continued to provide extensive support to international developments in
response to the possible terrorist use of radiological dispersal devices (RDD) and radiological
exposure devices. This support included extensive participation by the NRC Chairman and senior
management in the IAEA International Conference on the Security of International Sources in
Vienna, Austria, in March 2003. In addition, during technical meetings held in Vienna in March and
July 2003, NRC staff supported the IAEA in developing its revised Code of Conduct for the control
and security of radioactive sources. NRC staff contributions toward the IAEA’s revised Code of
Conduct were particularly notable in categorizing the sources of greatest concern.
PRESIDENT’S MANAGEMENT AGENDA
In August 2001, the President launched a management reform agenda targeted to “address the
most apparent deficiencies where the opportunity to improve performance is the greatest.” The
Governmentwide initiatives of the President’s Management Agenda are intended to make
Government more citizen-centered, results-oriented, and market-based and to actively promote
competition. As a result, the President identified five Governmentwide goals: (1) Strategic
Management of Human Capital, (2) Competitive Sourcing, (3) Improved Financial Management,
(4) Expanded E-Government, and (5) Budget and Performance Integration. The NRC is actively
responding to the call from the President to improve the management and performance of the
Federal Government. Chapter 2 of this report discusses our accomplishments in these important
areas.
FINANCIAL PERFORMANCE OVERVIEW
As of September 30, 2003, and 2002, the financial condition of the NRC was sound with respect
to having sufficient funds to meet program needs and adequate control of these funds in place to
ensure obligations did not exceed budget authority. The NRC prepared its financial statements in
accordance with the accounting standards codified in the Statements of Federal Financial
Accounting Standards (SFFAS) and Office of Management and Budget (OMB) Bulletin No. 01-09,
Form and Content of Agency Financial Statements.




                                                7
MANAGEMENT’S DISCUSSION AND ANALYSIS
Sources of Funds
The NRC has two appropriations, Salaries and Expenses and Office of the Inspector General
(OIG), and funds for both appropriations are available until expended. The NRC’s total new
FY 2003 budget authority was $584.6 million, of this amount, $577.8 million is for the Salaries and
Expenses appropriation, and $6.8 million is for the Office of the Inspector General appropriation.
This represents an overall increase in new budget
authority of $26.0 million over FY 2002
($25.4 million for the Salaries and Expenses
Appropriation and $0.6 million for the Office of the
Inspector General Appropriation). In addition, $41.1
million from prior-year appropriations, $3.4 million
from prior-year reimbursable work, and $8.3 million
for new reimbursable work to be performed for
others was available to obligate in FY 2003. The
sum of all funds available to obligate for FY 2003
was $637.4 million, which is a $41.4 million
increase over the FY 2002 amount of $596.0
million.
The Omnibus Budget Reconciliation Act of 1990 (OBRA-90), as amended, required the NRC to
collect fees to offset approximately 94 percent of its new budget authority, less the amount
appropriated to the NRC from the Nuclear Waste Fund for FY 2003. The NRC collected $526.3
million in FY 2003. This is 100 percent of the recovery requirement. For FY 2002, OBRA-90
required NRC to collect approximately 96 percent of its new budget authority, excluding
appropriations from the Nuclear Waste Fund.
Uses of Funds by Function
The NRC incurred obligations of $597.0 million,
which was an increase of $38.3 million over
FY 2002. Approximately 57 percent of obligations
were used for salaries and benefits.             The
remaining 43 percent was used to obtain technical
assistance for the NRC’s principal regulatory
programs, to conduct confirmatory safety research,
to cover operating expenses, (e.g., building rentals,
transportation, printing, security services, supplies,
office automation, training), staff travel, and
reimbursable work. The unobligated budget
authority available at the end of FY 2003 was
$40.4 million, which is an increase over the
FY 2002 amount of $37.3 million. Of this $40.4
million, $5.7 million is for reimbursable work and $34.7 million is available to fund critical needs in
FY 2004.
Audit Results
The NRC received an unqualified audit opinion on its FY 2003 financial statements, with no
material internal control weaknesses and no substantial noncompliances with the Federal Financial
Management Improvement Act (Improvement Act). This was the 10th consecutive year the NRC
received an unqualified opinion. In addition, during FY 2003, the auditors evaluated the NRC’s


                                                  8
MANAGEMENT’S DISCUSSION AND ANALYSIS
corrective actions on the agency’s only material internal control weakness regarding the
implementation of SFFAS Number 4, Managerial Cost Accounting Concepts and Standards for the
Federal Government. The auditors concluded that the actions taken adequately addressed the
material weakness and the associated substantial noncompliance with FFMIA; therefore, the cost
accounting reportable condition in the current year is not a material weakness nor a substantial
noncompliance with the Improvement Act.
For FY 2003, the auditors identified one new reportable condition concerning system security
access. In addition to cost accounting, four reportable conditions were carried over from FY 2002.
Three of these reportable conditions remained open at the end of FY 2003 concerning the
development of the hourly rate for license fees, accounting for internal use software, and contracts
in close-out. The agency expects to fully implement corrective action during FY 2004 for the open
reportable conditions.
Financial Statement Highlights
The NRC’s financial statements summarize the financial activity and financial position of the
agency. The financial statements, footnotes, and the balance of the required supplementary
information, appear in Chapter 3: Auditor’s Report and Financial Statement. Analysis of the
principal statements follows.
Analysis of the Balance Sheet
The NRC’s assets were approximately $276.2 million as of September 30, 2003. This is an
increase of $11.8 million from the end of
FY 2002 and is mainly due to an increase in
Fund Balance with Treasury. The assets                 ASSET SUMMARY (in millions)
reported in NRC’s Balance Sheet are
summarized in the accompanying table.                                    FY 2003   FY 2002

The Fund Balance with Treasury represents        Fund Balance with Treasury          $193.4   $181.4
the NRC’s largest asset of $193.4 million as     Accounts Receivable, Net              50.2     44.8
of September 30, 2003, an increase of
$12.0 million from the FY 2002 year-end          Property, Plant, & Equipment, Net     29.6     36.9
balance. This balance accounts for               Other                                  3.0      1.2
approximately 70 percent of total assets
                                                            Total Assets             $276.2   $264.3
and represents appropriated funds,
collected license fees, and other funds
maintained at the U.S. Treasury to pay
current liabilities.
Accounts Receivable, Net, as of September 30, 2003, was $50.2 million and includes an offsetting
allowance for doubtful accounts of $2.8 million. This is a 12 percent increase over the FY 2002
year-end Accounts Receivable, Net, balance of $44.8 million. Accounts Receivable Due from the
Public was $47.6 million, representing 17 percent of total assets.




                                                 9
MANAGEMENT’S DISCUSSION AND ANALYSIS
The value of Property, Plant, and Equipment, Net, was $29.6 million, representing 11 percent of
total assets. The majority of the balance is comprised of nuclear reactor simulators, leasehold
improvements, and computer hardware and software. The Property, Plant, and Equipment line item
reflects the adoption of capitalizing the full costs of developing internal use software, as required
by SSFAS Number 10, Accounting for Internal Use Software, implemented on October 1, 2000.
The NRC’s liabilities were $134.6 million as
of September 30, 2003. The accompanying
table shows a decrease in Total Liabilities                        LIABILITIES SUMMARY (in millions)

of $1.9 million from the FY 2002 year-end                                              FY 2003       FY 2002
balance of $136.5 million. Other Liabilities
                                                  Accounts Payable                           $27.3       $28.4
include $49.5 million for recoveries from
unbilled accounts receivable, $8.1 million        Federal Employee Benefits                      9.1       9.1
for accrued salaries to employees, and
                                                  Other Liabilities                            98.2       99.0
$30.0 million for accrued annual leave. Of
the agency’s liabilities, $40.8 million were               Total Liabilities               $134.6      $136.5
not covered by budgetary resources, which
is a slight increase over the balance as of
September 30, 2002. Liabilities not covered by budgetary resources are unfunded pension
expenses, accrued annual leave, and future workers’ compensation. The Federal budget process
does not recognize the cost of future benefits for today’s employees. Instead, the Federal budget
process recognizes those costs in future years when they are actually paid.
The difference between total assets and
total liabilities, net position, was $141.6
million as of September 30, 2003. This is                         NET POSITION SUMMARY (in millions)
an increase of $13.7 million from the
                                                                                         FY 2003       FY 2002
FY 2002 year-end balance. Unexpended
Appropriations is the amount of authority             Unexpended Appropriations            $150.3       $128.3
granted by Congress that has not been
                                                      Cumulative Results of Operations        (8.7)        (0.4)
expended.          Cumulative Results of
Operations represent net results of                           Total Net Position           $141.6       $127.9
operations since the NRC’s inception. The
decrease is primarily the result of a $7.3
million decrease in Property, Plant, and
Equipment, Net.




                                                     10
MANAGEMENT’S DISCUSSION AND ANALYSIS
Analysis of the Statement of Net Cost
The Statement of Net Cost presents the
net cost of NRC’s four strategic arenas                     NET COST OF OPERATIONS (in millions)
as identified in the NRC Annual
                                                                                        FY 2003    FY 2002
Performance Plan. The purpose of this
statement is to link program performance         Nuclear Reactor Safety                  $(61.9)     $(43.5)
under GPRA reporting to the cost of
                                                 Nuclear Materials Safety                  34.0       38.7
programs. The NRC’s net cost of
operations for the year ended                    Nuclear Waste Safety                      77.6       72.1
September 30, 2003, was $63.6 million,
                                                 International Nuclear Safety Support      13.9       11.9
which is a decrease of $15.6 million over
the FY 2002 net cost of $79.2 million. Net             Net Cost of Operations             $63.6      $79.2
costs by strategic arena are shown in the
accompanying table.


Total exchange revenue for the year ended September 30, 2003, was $537.5 million, which is an
increase of $64.4 million over the exchange revenue of $473.1 million for the year ended
September 30, 2002. Exchange revenue is derived from fees for licensing inspections, other
services, and annual fees assessed in accordance with 10 CFR Parts 170 and 171.
Analysis of Statement of Changes in Net Position
The Statement of Changes in Net Position reports the change in net position during the reporting
period. Net position is affected by changes in its two components—Cumulative Results of
Operations and Unexpended Appropriations. The increase in Net Position of $13.7 million from
FY 2002 to FY 2003 is due primarily from the net change in Cumulative Results of Operations of
$(8.3) million and an increase in Unexpended Appropriations of $22.0 million.
Analysis of the Statement of Budgetary Resources
The Statement of Budgetary Resources shows the sources of budgetary resources available and
the status at the end of the period. It presents the relationship between budget authority and budget
outlays, and reconciles obligations to total outlays. For FY 2003, NRC had Budgetary Resources
available of $637.4 million, the majority of which was derived from new budget authority. This
represents a 7 percent increase over FY 2002 budgetary resources available of $596.0 million.
For FY 2003, the Status of Budgetary Resources showed obligations of $597.0 million, or 94
percent of funds available. This is comparable to FY 2002 obligations of $558.7 million, also 94
percent of funds available. Total Outlays for FY 2003 were $574.3 million, which represents a $58
million increase from FY 2002 total Outlays of $516.1 million.
Analysis of the Statement of Financing
The Statement of Financing is designed to provide the bridge between accrual-based (financial
accounting) information in the Statement of Net Cost and obligation-based (budgetary accounting)
information in the Statement of Budgetary Resources by reporting the differences and reconciling
the two statements. This reconciliation ensures that the proprietary and budgetary accounts in the
financial management system are in balance. The Statement of Financing takes Budgetary
Obligations of $597.0 million and reconciles to the Net Cost of Operations of $63.6 million by
deducting non-budgetary resources, costs not requiring resources, and financing sources yet to
be provided.

                                                 11
MANAGEMENT’S DISCUSSION AND ANALYSIS
SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
This section provides information on NRC’s compliance with the:
     #         Federal Managers’ Financial Integrity Act
     #         Federal Financial Management Improvement Act
     #         Prompt Payment Act
     #         Debt Collection Improvement Act
     #         Biennial Review of User Fees
     #         Inspector General Act
     #         Other key legal and regulatory requirements


Federal Managers’ Financial Integrity Act
The Federal Managers’ Financial Integrity Act
                                                                   INTEGRITY ACT STATEMENT
(Integrity Act) mandates that agencies establish
controls that reasonably ensure that: (i) obligations              The U.S. Nuclear Regulatory
and costs comply with applicable law; (ii) assets are              Commission evaluated its
safeguarded against waste, loss, unauthorized use,                 management controls and
or misappropriation; and (iii) revenues and             financial management systems for
expenditures are properly recorded and accounted        FY 2003, as required by the Federal
for. This act encompasses program, operational,         Managers’ Financial Integrity Act. On
and administrative areas as well as accounting and      the basis of the NRC’s comprehensive
financial management. The act requires the              management control program, I am
Chairman to provide an assurance statement on the       pleased to certify, with reasonable
adequacy of management controls and                     assurance, that the agency is in
conformance of financial systems with                   compliance with the provisions of this
Governmentwide standards.                               act.
Management Control Review Program
Managers throughout the NRC are responsible for
ensuring that effective controls are implemented in
their areas of responsibilities. Each office director
and regional administrator prepared an annual           Nils J. Diaz
assurance statement that identified any control         Chairman
weaknesses that required the attention of the NRC’s
Executive Committee on Management Controls.
These statements were based on various sources
and included:
     #         Management knowledge gained from the daily operation of agency programs
               and reviews.
     #         Management reviews.
     #         Program evaluations.
     #         Audits of financial statements.
     #         Reviews of financial systems.
     #         Annual performance plans.
     #         Inspector General and General Accounting Office reports.
     #         Reports and other information provided by the congressional committees of
               jurisdiction.

                                                 12
MANAGEMENT’S DISCUSSION AND ANALYSIS
The NRC’s Executive Committee on Management Controls is comprised of senior executives from
offices of the Chief Financial Officer and the Executive Director of Operations, with the General
Counsel and the Inspector General participating as advisors. The committee met and reviewed
these individual assurance statements. The committee then advised the Chairman whether the
NRC had any management control deficiencies serious enough to be reported as a material
weakness or material non-compliance.
The NRC’s ongoing management control program requires, among other things, that management
control deficiencies are integrated into offices’ and regions’ annual operating plans. The operating
plan process has provisions for periodic updates and for attention from senior managers. The
management control information in these plans, combined with the individual assurance statements
discussed previously, provides the framework for monitoring and improving the agency’s
management controls on an ongoing basis.
FY 2003 Integrity Act Results
The NRC evaluated its management control systems for the fiscal year ending September 30,
2003. This evaluation provided reasonable assurance that the agency’s management controls
achieved their intended objectives. As a result, management concluded that the NRC did not have
any material weaknesses in its programmatic or administrative activities. During FY 2003, a prior-
year auditor-identified material weakness concerning implementation of managerial cost accounting
was remediated. The next section under “FY 2003 Improvement Act Results” contains a complete
description of the corrective actions taken to resolve the issues associated with managerial cost
accounting.
Federal Financial Management Improvement Act
The Improvement Act requires each agency to implement and maintain systems that comply
substantially with: (i) Federal financial management system requirements, (ii) applicable Federal
accounting standards, and (iii) the standard general ledger at the transaction level. The act requires
the Chairman to determine whether the agency’s financial management systems comply with the
Improvement Act and to develop remediation plans for systems that do not comply.
FY 2003 Improvement Act Results
As of September 30, 2003, the NRC evaluated its financial systems to determine if they complied
with applicable Federal requirements and accounting standards required by the Improvement Act.
The following seven systems were evaluated: the Federal Financial System, Human Resources
Management System, Cost Accounting System, Advice of Allotments/Financial Plan, Capitalized
Property System, Fee Billing Systems, and Controller Resource Database System.
The Chairman of the NRC determined that as of September 30, 2003, NRC financial management
systems were in substantial compliance with the Improvement Act. In making his determination,
the Chairman considered all the information available to him, including the NRC Executive
Committee on Management Control’s report on the effectiveness of internal controls and OIG audit
reports. He also considered the results of the financial management systems reviews conducted
by the agency.
At the end of FY 2002, the NRC had one finding of substantial noncompliance with the
Improvement Act, for failure of the Cost Accounting System to meet Governmentwide financial
management systems requirements and applicable Federal accounting standards. During FY 2003,
NRC completed a comprehensive assessment of its Cost Accounting System to identify
noncompliance issues associated with system requirements, security requirements, and SFFAS
Number 4.

                                                 13
MANAGEMENT’S DISCUSSION AND ANALYSIS
During FY 2003, the NRC developed a remediation plan to aggressively implement corrective
actions to resolve all Improvement Act, system security, and SFFAS Number 4 noncompliance
issues. All of the remediation plan corrective actions were completed by the end of FY 2003.
Corrective actions included the following tasks to improve the Cost Accounting System:
     #        Provide agency managers with timely quarterly reports for decisionmaking.
     #        Employ a process to assign and distribute the full cost of outputs.
     #        Improve cost allocation methodology.
     #        Employ a process to link responsibility segments to measurable costs of output.
     #        Improve system security and efficiency issues.
Prompt Payment
The Prompt Payment Act requires Federal agencies to make timely payments to vendors for
supplies and services, to pay interest penalties when payments are made after the due date, and
to take cash discounts when they are economically justified. From FY 2002 to FY 2003, the NRC
had an increase of 1,584 invoices (from 6,544 to 8,128) that were paid and subject to the Prompt
Payment Act. For FY 2003, the NRC increased its on-time payments subject to the Prompt
Payment Act from 87 percent in FY 2002 to 94 percent in FY 2003. The amount of interest
penalties incurred during FY 2003 was $2,927, which is a significant decrease over the FY 2002
amount of $7,647. The agency continued to
make over 99 percent of its vendor
payments electronically.
Debt Collection
The Debt Collection Improvement Act is
intended to enhance the ability of the
Federal Government to service and collect
debts. The agency’s goal is to maintain the
delinquent debt owed to the NRC, at year-
end to less than one percent of its annual
billings. The NRC continues to meet this goal and has kept delinquent debt to less than one
percent for the past 8 years. Delinquent debt at the end of FY 2003 was $2.0 million. This is a
decrease of $0.1 million over FY 2002 and a decrease in the number of outstanding receivables
from 280 to 233. The NRC continues to aggressively pursue the collection of delinquent debt and
continues to timely refer all eligible delinquent debt over 180 days to the U.S. Treasury for
collection.
Biennial Review of User Fees
The Chief Financial Officers (CFO) Act
requires agencies to conduct a biennial
review of fees, royalties, rents, and other
charges imposed by agencies, and make
revisions to cover program and
administrative costs incurred. During
FY 2002 and FY 2003, the NRC reviewed its
fees subject to the biennial review
requirement. Each year, the NRC revises the



                                              14
MANAGEMENT’S DISCUSSION AND ANALYSIS
hourly rates for license and inspection fees and adjusts the annual fees to meet the fee collection
requirements of the Omnibus Budget Reconciliation Act of 1990, as amended.
The most recent changes to the license, inspection, and annual fees are described in the Federal
Register (68 FR 36714, June 18, 2003). The following fees and charges were also revised to more
appropriately recognize actual costs: fees for public use of the auditorium, administrative charges
imposed on delinquent debt, fees for search and review time to respond to Freedom of Information
Act and Privacy Act requests, and license fees based on average number of hours. Reviews of
other types of fees concluded that fee revisions were not warranted at this time.
Treasury Performance Measure Summary
Treasury has five key elements for measuring how agencies complied with reporting requirements
for the Federal Agencies Centralized Trial Balance Statement (FACTS I) trial and
intragovernmental activity. Overall for FY 2002, the NRC complied with the five reporting elements
for timely reporting, reconciliation of beginning and ending net position differences, reliability of
FACTS I reporting, consistency of audited financial statements to FACTS I reporting, and
intragovernmental activity for elimination of differences. Treasury has not issued its FY 2003
Performance Measure Summary; however, based on our self-evaluation, NRC also met the
requirements for this fiscal year.
Inspector General Act
The agency has established and continues to maintain an excellent record in resolving and
implementing open audit recommendations presented in Office of the Inspector General (OIG)
reports. Section 5(b) of the Inspector General Act requires agencies to report on final actions taken
on OIG audit recommendations. This information as well as data concerning disallowed costs
determined through contract audits conducted by the Defense Contract Audit Agency can be found
in Appendix B.
Improper Payments
Improper payments continue to be at low risk for the agency. The NRC continues to evaluate its
internal controls to guard against improper payments and monitors and reports on all improper
payments within its programs. At the present time, NRC’s inventory of functional payment areas
consists of commercial vendor, travel, and payroll payments and refunds issued to NRC licensees.
OMB met with all CFO Act agencies regarding the implementation of the Improper Payments
Information Act. OMB supported NRC’s position that there were no significant risks of improper
payments at the NRC based on the review of its programs in FY 2002. In addition, the General
Accounting Office reviewed the FY 2002 improper payment data submitted by NRC and agreed
that the controls in place were working and that the programs were an area of low risk. NRC does
not administer any grant, loan, or entitlement programs. For FY 2003, NRC made 171,930
payments and identified 84 as improper payments, or less than one-half of one percent. The dollar
value of improper payments was $88.6 thousand out of total payments of $618.4 million.




                                                 15
Chairman Nils J. Diaz
U.S. Nuclear Regulatory Commission
Washington, DC


In our audit of the U.S. Nuclear Regulatory Commission (NRC), we found:

     • The balance sheets of NRC as of September 30, 2003 and 2002, and the related
       statements of net cost, statements of changes in net position, statements of budgetary
       resources, and statements of financing for the fiscal years then ended are presented
       fairly, in all material respects, in conformity with accounting principles generally
       accepted in the United States of America;

     • Management’s assertion was fairly stated that NRC’s systems of accounting and internal
       control in place as of September 30, 2003, are in compliance with the internal control
       objectives in the Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
       Requirements for Federal Financial Statements. The Bulletin requires that transactions
       be properly recorded, processed, and summarized to permit the preparation of the
       financial statements in accordance with accounting principles generally accepted in the
       United States of America and that assets be safeguarded against loss from
       unauthorized acquisition, use or disposal; and

     • No new current year reportable instances of noncompliance with the laws and
       regulations were noted.

The following sections outline each of these conclusions in more detail.

INDEPENDENT AUDITORS’ REPORT ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of NRC as of September 30, 2003 and
2002, and the related statements of net cost, statements of changes in net position, statements
of budgetary resources, and statements of financing for the fiscal years then ended. These
financial statements are the responsibility of NRC’s management. Our responsibility is to
express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America, the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States, and OMB Bulletin
No. 01-02. Those standards require that we plan and perform the audits to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial
statement presentation. We believe that our audits provide a reasonable basis for our opinion.

                                               16
Matters of Emphasis

Classification of Costs

       OMB Bulletin 01-09, Form and Content of Agency Financial Statements, provides
       guidance to federal agencies for presenting program costs classified by
       intragovernmental and public components. The basis for classification relies on the
       concept of who received the benefits of the costs incurred (e.g. private sector licensees
       versus federal licensees) rather than who was paid. However, following the advice of
       OMB, NRC classified the costs on the Statement of Net Cost using an underlying
       concept of who was paid. Furthermore, OMB Bulletin 01-09 requires that the Statement
       of Net Cost be presented using full program costs by output. The agency presents its
       costs aggregated by mission-related strategic arenas, which are comprised of NRC’s
       programs.

U.S. Department of Energy Expenses

       NRC’s principal statements include reimbursable expenses of the U.S. Department of
       Energy (DOE) National Laboratories. NRC’s Statements of Net Cost include
       approximately $73.1 and $54.5 million, respectively for the years ended September 30,
       2003 and 2002, of reimbursed expenses. Our audits included testing these expenses
       for compliance with laws and regulations within NRC. The work placed with DOE is
       under the auspices of a Memorandum of Understanding between NRC and DOE. The
       examination of DOE National Laboratories for compliance with laws and regulations is
       DOE’s responsibility. This responsibility was further clarified by a memorandum of the
       General Accounting Office’s (GAO) Assistant General Counsel, dated March 6, 1995,
       where he opined that “...DOE’s inability to assure that its contractors’ costs [National
       Laboratories] are legal and proper...does not compel a conclusion that NRC has failed
       to comply with laws and regulations.” DOE also has the cognizant responsibility to
       assure audit resolution and should provide the results of its audits to NRC.

In our opinion, the financial statements referred to above and included in the NRC’s
performance and accountability report, present fairly, in all material respects, the financial
position of NRC at September 30, 2003 and 2002, and its net cost, changes in net position,
budgetary resources, and reconciliation of net cost to budgetary resources for the fiscal years
then ended in conformity with accounting principles generally accepted in the United States of
America.

REPORT ON MANAGEMENT’S ASSERTION ABOUT THE EFFECTIVENESS OF INTERNAL
CONTROL

We have examined management’s assertion, as of September 30, 2003, that NRC’s systems of
accounting and internal control are in compliance with the internal control objectives listed in
OMB Bulletin No. 01-02. The Bulletin requires management to establish internal accounting
and administrative controls to provide reasonable assurance that transactions are properly
recorded, processed, and summarized to permit the preparation of the financial statements in
accordance with accounting principles generally accepted in the United States of America and
that assets be safeguarded against loss from unauthorized acquisition, use or disposal.



                                               17
NRC’s management is responsible for maintaining effective internal control over financial
reporting. Our responsibility is to express an opinion on management’s assertion based on our
examination.

Our examination was conducted in accordance with the attestation standards established by the
American Institute of Certified Public Accountants (AICPA); the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and OMB Bulletin No. 01-02. Accordingly, we obtained an understanding of the
internal control over financial reporting, tested and evaluated the design and operating
effectiveness of internal control, and performed such other procedures as we considered
necessary in the circumstances. We believe that our examination provides a reasonable basis
for our opinion.

Because of inherent limitations in any internal control, misstatements due to error or fraud may
occur and not be detected. Also, projections of any evaluation of internal control over financial
reporting to future periods are subject to the risk that the internal control may become
inadequate because of changes in conditions, or that the degree of compliance with policies or
procedures may deteriorate.

In our opinion, management’s assertion that NRC maintained effective internal control over
financial reporting as of September 30, 2003, is fairly stated, in all material respects based on
the internal control objectives listed in OMB Bulletin No. 01-02.

However, we noted certain matters involving the internal control and its operation that we
consider to be reportable conditions under standards established by the AICPA and OMB
Bulletin No. 01-02. A reportable condition is a matter coming to our attention relating to
significant deficiencies in the design or operation of the internal control that, in our judgment,
could adversely affect the agency’s ability to meet the internal control objectives described
above. We identified three reportable conditions; NRC needs to (1) strengthen controls to
protect its information systems’ security access; (2) improve monitoring over accounting for
internal use software; and (3) sustain cost accounting reporting system improvements.

A material weakness, as defined by the AICPA and OMB Bulletin No. 01-02, is a reportable
condition in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements caused by error or fraud in
amounts that would be material in relation to the principal financial statements being audited
may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. We believe that the reportable conditions that follow are
not material weaknesses as defined by the AICPA and OMB Bulletin No. 01-02.

Information Systems Security Access

GAO’s Standards for Internal Control in the Federal Government provide for agencies to design
management controls to promote the reliability of the financial and performance information.
Inherent to the design of such controls is the reduction of potential risks to the agency.

During our review of the agency’s information security environment, we noted exceptions in two
of the agency’s seven financial management core systems. The issues identified indicate
weaknesses in the agency’s management controls. The conditions, which are not discussed in



                                                 18
this report with specificity because of their sensitivity, relate to the improper design of
management controls affecting:

     • Lack of proper maintenance and oversight of system user profiles, which resulted in
       assignment of incompatible duties; and
     • Lack of compliance with agency policy (Management Directive No. 12.5, NRC
       Automated Information Security Program) for software password security authentication.

These issues were discussed at length with agency information system managers. The agency
initiated corrective actions and is presently undergoing a thorough operational and security
review of the exceptions in order to build a more robust security system.

Recommendation

1.   The CFO should develop policies and procedures to ensure that changes impacting user
     profiles are analyzed fully by system administrators for compatibility of duties. Additionally,
     the CFO should periodically review software enabled system controls to ensure
     compliance with agency policy.

Monitoring of Accounting for Internal Use Software

As reported in FY 2002, the Federal Accounting Standards Advisory Board issued Statement of
Federal Financial Accounting Standards (SFFAS) No. 10, Accounting for Internal Use Software,
effective October 1, 2000. SFFAS No. 10 defines three software life-cycle phases: planning,
development and operations. Paragraph 16 requires, “For internally developed software,
capitalized cost should include the full cost (direct and indirect cost) incurred during the
development phase.” The Statement defines full cost to include salaries of programmers,
project managers, administrative personnel, and associated employee benefits and outside
consultants’ fees.

Our assessment during FY 2002, noted that the OCFO did not have proactive monitoring
procedures to identify projects that had begun or completed the development phase. The
GAO’s Standards for Internal Control in the Federal Government state, “Internal control should
generally be designed to assure that ongoing monitoring occurs in the course of normal
operations.”

In the current fiscal year, the management control structure continued to rely heavily on project
managers to inform the OCFO of time and costs expended in the software development phase.
However, the OCFO has not fully addressed execution of existing monitoring procedures to
ensure the completeness or reasonableness of the information provided.

Our review of the agency’s practices for accounting for internal use software projects, identified
the following inconsistencies:

1.     Contractor costs incurred on projects were not being routinely captured and capitalized;
2.     Contractor costs were not being recorded correctly;
3.     Project managers were not coding their time appropriately during the development
       phase of their projects;
4.     Indirect charges to the project were not being tracked, thus understating the cost of
       development; and


                                                  19
5.     Labor certifications were not being completed, signed and/or were being completed late.

These exceptions continue to indicate that the agency does not have a routine, timely and
disciplined process in place to monitor the adequacy of accounting information necessary to
capitalize internal use software projects.

     Recommendation

2.     The CFO should reassess the accounting activities being undertaken by agency
       personnel to ensure the completeness and propriety of accounting transactions.
       Additionally, the CFO should be more proactive in monitoring and training project
       managers to instill discipline which provides reliability of financial information.

Managerial Cost Accounting

In FY 1998, we identified the lack of compliance with the implementation of SFFAS No. 4,
Managerial Cost Accounting Concepts and Standards. The NRC’s CFO responded to the
condition by developing a remediation plan to implement cost accounting. During FY 2002, the
agency made progress by issuing preliminary reports to managers, and by initiating a dialogue
with agency managers on the adequacy and usefulness of the reports provided. In May 2002,
the CFO asserted completion of the remediation actions and implemented a cost accounting
system.

Although the agency made progress in FY 2002, the cost accounting reporting system did not
meet the requirements of SFFAS No. 4. Furthermore, the system did not contain fundamental
management controls as required by the Joint Financial Management Improvement Program
(JFMIP) guidelines. During FY 2002, we reported the condition as both a material weakness
and an FFMIA substantial noncompliance, prompting the CFO to develop and implement
remediation actions to address continuing challenges.

In the current year, the agency successfully achieved a redesign of the cost accounting system
and enhanced the documentation of controls and operating procedures. As a result, the
material weakness and FFMIA substantial noncompliance were adequately addressed. The
corrective actions, however, occurred late in the fiscal year. Consequently, the improved
system controls and related processes were in place an insufficient amount of time, thereby
precluding our assessment of the effectiveness of design and operation of related controls for
the entire fiscal year. We were, however, able to apply sufficient procedures to the output from
the system to assess the reliability and completeness of the information used for the statement
of net cost.

Examples of the cost accounting implementation actions include: (1) development of user and
operations guides enhancing the processing protocols of the system; (2) completion of an
electronic audit trail tool to both document the audit trail from the general ledger to the
statement of net cost, and to eliminate manual processes; and (3) redefining outputs, in
compliance with SFFAS No. 4, as programs rather than program accomplishments (i.e.
activities).




                                               20
Recommendation

3.     The CFO should sustain the management controls over cost accounting with the same
       focus demonstrated at year-end. As the cost accounting processes become more
       routine, refinements may be needed. For example, effective in FY 2004, quarterly
       reports will be required 21 days after the quarter’s end, thus necessitating the current
       process to produce cost accounting information for financial reporting sooner. We
       believe that continued senior management attention will yield additional benefits in
       future periods.

Status of Prior Year Comments

In the prior year, we included conditions related to external reporting and the agency’s close-out
processing procedures. Corrective actions implemented have closed the comment on external
reporting. In the current fiscal year, however, the agency’s actions on contract close-out
procedures were not adequate. Continued analysis of the process in place and development
and implementation of improved policy will be necessary prior to closing the comment.

REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS

We conducted our audit for the year ended September 30, 2003, in accordance with auditing
standards generally accepted in the United States of America, the standards applicable to
financial audits contained in Government Auditing Standards issued by the Comptroller General
of the United States, and OMB Bulletin No. 01-02.

NRC management is responsible for complying with laws and regulations applicable to the
agency. As part of obtaining reasonable assurance about whether the agency’s financial
statements are free of material misstatement, we performed tests of its compliance with certain
provisions of applicable regulations, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts and certain other laws and
regulations specified in OMB Bulletin No. 01-02, including the requirements of the Federal
Financial Management Improvement Act (FFMIA) of 1996. We limited our tests of compliance
to these provisions and we did not test compliance with all laws and regulations applicable to
NRC. The results of our tests of compliance disclosed no noncompliance with laws and
regulations that are required to be reported under Government Auditing Standards or OMB
Bulletin No. 01-02.

U.S. Department of Energy Expenses

       NRC’s principal statements include reimbursable expenses of the U.S. Department of
       Energy (DOE) National Laboratories. NRC’s Statements of Net Cost include
       approximately $73.1 and $54.5 million, respectively for the years ended September 30,
       2003 and 2002, of reimbursed expenses. Our audits included testing these expenses
       for compliance with laws and regulations within NRC. The work placed with DOE is
       under the auspices of a Memorandum of Understanding between NRC and DOE. The
       examination of DOE National Laboratories for compliance with laws and regulations is
       DOE’s responsibility. This responsibility was further clarified by a memorandum of the
       GAO’s Assistant General Counsel, dated March 6, 1995, where he opined that “...DOE’s




                                               21
      inability to assure that its contractors’ costs [National Laboratories] are legal and
     proper...does not compel a conclusion that NRC has failed to comply with laws and
     regulations.” DOE also has the cognizant responsibility to assure audit resolution and
     should provide the results of its audits to NRC.

The objective of our audit of the financial statements was not to provide an opinion on overall
compliance with such provisions of laws and regulations and, accordingly, we do not express
such an opinion.

A noncompliance issue reported in prior years reports continues to be unresolved. Specifically,
this issue addresses the following condition:

Part 170 Hourly Rates

As previously reported from FY 1998 through 2002, the Omnibus Budget Reconciliation Act
(OBRA) of 1990 requires the NRC to recover approximately 100 percent of its budget authority
by assessing fees. (The recovery percentage has been reduced in recent years by 2 percent
each year. During FY 2003, the recovery percentage was 94 percent.) Accordingly, NRC
assesses two types of fees to its licensees and applicants. One type, specified in 10 CFR Part
171, consists of annual fees assessed to power reactors, materials and other licensees. The
other type, specified in 10 CFR Part 170 and authorized by the Independent Offices
Appropriation Act of 1952, is assessed for specific licensing actions, inspections and other
services provided to NRC’s licensees and applicants.

Each year, the OCFO computes the hourly rates used to charge for Part 170 services.
Consistent with OBRA of 1990, the rates are based on budgetary data and are used to price
individually identifiable Part 170 services. The FY 1998 and subsequent years’ rates were
developed using the budgetary basis without validating the fee amounts to the full cost of
providing Part 170 services.

The CFO has been awaiting the implementation of cost accounting to fully address this
condition. During the final quarter of FY 2003, the agency achieved compliance with SFFAS
No.4 regarding cost accounting. Therefore, we anticipate that during FY 2004 the agency will
address this noncompliance.

We continue to encourage the agency to reassess the approach used in previous analyses
provided for review and to refine the process and the cost elements to a level that will achieve
comparability. Until an analysis is completed, documented and available for additional audit
follow-up, the recommendation related to this condition cannot be closed.

INTERNAL CONTROL RELATED TO PERFORMANCE MEASURES

With respect to internal controls related to performance measures, the OIG performed those
procedures and will address this issue separately. Our procedures were not designed to
provide assurance over reported performance measures, and, accordingly, we do not provide
an opinion on such information.




                                               22
CONSISTENCY OF OTHER INFORMATION

Our audit was conducted for the purpose of forming an opinion on the financial statements of
NRC taken as a whole. The required supplementary information, Schedule of Assets and
Liabilities, and the management discussion and analysis is not a required part of the financial
statements but is supplementary information required by OMB Bulletin No. 01-09. We have
applied certain limited procedures which consisted principally of inquiries of management
regarding the methods of measurement and presentation of the supplementary information.
However, we did not audit the information and express no opinion on it.

Our audit was conducted for the purpose of forming an opinion on the financial statements of
NRC taken as a whole. The required supplementary information, Schedule of Budgetary
Resources, is not a required part of the financial statements but is supplementary information
required by OMB Bulletin No. 01-09. This information is also presented for purposes of
additional analysis of the financial statements rather than to present the budgetary resources of
the NRC programs. This information has been subjected to the auditing procedures applied in
the audit of the financial statements and, in our opinion, is fairly stated in all material respects in
relation to the financial statements taken as a whole.

VIEWS OF RESPONSIBLE OFFICIALS

Our draft report was provided to the Chief Financial Officer on November 18, 2003, to facilitate
discussion at our November 20, 2003, exit conference. At the exit conference the CFO, OIG
and OCFO representatives discussed all issues in the report and potential opportunities for
corrective actions. The Chief Financial Officer responded to our report on November 26, 2003,
and generally agreed with the conditions identified. The corrective actions provided in the
CFO’s response appear appropriate and will be reviewed for implementation in subsequent
audits.
                         ____________________________________

This report is intended solely for the information and use of the management and Inspector
General of NRC, OMB, and Congress and is not intended to be and should not be used by
anyone other than these specified parties.



November 20, 2003




                                                  23
FINANCIAL STATEMENTS, ACCOMPANYING NOTES AND
     REQUIRED SUPPLEMENTARY INFORMATION




                     24
LIMITATIONS OF THE FINANCIAL STATEMENTS
The principal statements have been prepared to report the financial position and results of
operations of the NRC, pursuant to the requirements of the Chief Financial Officers Act of 1990,
as amended by the Government Management Reform Act of 1994. These statements have
been prepared from the books and records of the NRC in accordance with the formats
prescribed by the Office of Management and Budget. However, these statements differ from
the financial reports used to monitor and control budgetary resources that are prepared from
the same books and records. The principal statements should be read with the realization that
they are for a sovereign entity, liabilities not covered by budgetary resources cannot be
liquidated without the enactment of an appropriation, and the payment of all liabilities other than
for contracts can be abrogated by the sovereign entity. Other limitations are included in the
footnotes to the principal statements.

The NRC’s FY 2003 financial statements were audited by R. Navarro and Associates, under
contract to the NRC’s Office of the Inspector General.




                                                25
U.S. Nuclear Regulatory Commission                                                         Principal Statements


  BALANCE SHEET
  (Dollars in Thousands)

  As of September 30,                                                                 2003                 2002
  Assets
  Intragovernmental
      Fund balances with Treasury (Note 2)                                       $ 193,420             $   181,449
      Accounts receivable (Note 3)                                                   2,667                   2,031
      Other                                                                          2,933                   1,141
         Total intragovernmental                                                   199,020                 184,621

  Cash and other monetary assets                                                        20                      20
  Accounts receivable, net (Note 3)                                                 47,563                  42,774
  Property and equipment, net (Note 4)                                              29,622                  36,922
  Other                                                                                 19                      20
        Total Assets                                                             $ 276,244             $   264,357


  Liabilities
  Intragovernmental
      Accounts payable                                                           $      7,399          $     8,411
      Other (Notes 5 and 6)                                                            57,084               49,157
          Total intragovernmental                                                      64,483               57,568

  Accounts payable                                                                     19,937               19,996
  Federal employees benefits (Note 6)                                                   9,073                9,062
  Other liabilities (Note 5)                                                           41,106               49,869
         Total Liabilities                                                            134,599              136,495

  Net Position
  Unexpended appropriations                                                        150,317                 128,336
  Cumulative results of operations (Note 8)                                         (8,672)                   (474)
        Total Net Position                                                         141,645                 127,862
        Total Liabilities and Net Position                                       $ 276,244             $   264,357




              The accompanying notes to the principal statements are an integral part of this statement.


                                                         26
U.S. Nuclear Regulatory Commission                                                              Principal Statements


STATEMENT OF NET COST
(Dollars in Thousands)

For the year ended September 30,                                                                 2003             2002

Nuclear Reactor Safety
Intragovernmental gross costs                                                               $     121,024     $    102,729
Less: Intragovernmental earned revenue                                                            (25,984)         (22,914)
  Intragovernmental net costs                                                                      95,040           79,815
Gross costs with the public                                                                       280,195          259,855
Less: Earned revenues from the public                                                            (437,155)        (383,157)
  Net costs with the public                                                                      (156,960)        (123,302)
     Total Net Cost of Nuclear Reactor Safety                                                     (61,920)         (43,487)

Nuclear Materials Safety
Intragovernmental gross costs                                                                      22,270           21,956
Less: Intragovernmental earned revenue                                                             (4,510)          (4,748)
  Intragovernmental net costs                                                                      17,760           17,208
Gross costs with the public                                                                        67,947           64,852
Less: Earned revenues from the public                                                             (51,688)         (43,375)
  Net costs with the public                                                                        16,259           21,477
     Total Net Cost of Nuclear Materials Safety                                                    34,019           38,685

Nuclear Waste Safety
Intragovernmental gross costs                                                                      24,780           22,107
Less: Intragovernmental earned revenue                                                             (1,726)          (1,762)
  Intragovernmental net costs                                                                      23,054           20,345
Gross costs with the public                                                                        68,858           66,609
Less: Earned revenues from the public                                                             (14,305)         (14,793)
  Net costs with the public                                                                        54,553           51,816
       Total Net Cost of Nuclear Waste Safety                                                      77,607           72,161

International Nuclear Safety Support
Intragovernmental gross costs                                                                      4,951             4,782
Less: Intragovernmental earned revenue                                                              (510)             (329)
  Intragovernmental net costs                                                                      4,441             4,453
Gross costs with the public                                                                       11,103             9,470
Less: Earned revenues from the public                                                             (1,604)           (2,034)
  Net costs with the public                                                                        9,499             7,436
       Total Net Cost of International Nuclear Safety Support                                     13,940            11,889

Net Cost of Operations                                                                      $     63,646      $     79,248




                 The accompanying notes to the principal statements are an integral part of this statement.


                                                              27
U.S. Nuclear Regulatory Commission                                                          Principal Statements


STATEMENT OF CHANGES IN NET POSITION
(Dollars in Thousands)

For the year ended September 30,                               2003                                         2002

                                              Cumulative    Unexpended      Cumulative  Unexpended
                                               Results     Appropriations    Results   Appropriations
Beginning Balances                           $     (474) $        128,336 $     6,693 $       86,980

Budgetary Financing Sources
Appropriations received                                    -                560,084                    -            535,430
Appropriations transferred-in/out                          -               (499,120)                   -           (448,676)
Other adjustments                                          -                   (219)                   -               (430)
Appropriations used                                  38,764                 (38,764)             44,968             (44,968)
Non-exchange revenue                                    624                        -              1,354                   -
Transfers-in/out without reimbursement                 (624)                       -             (1,354)                  -

Other Financing Sources
Imputed financing from costs
 absorbed by others                                  21,978                        -             18,780                  -
Other                                                (5,294)                       -              8,333                  -
      Total Financing Sources                        55,448                   21,981             72,081             41,356

Net Cost of Operations                              (63,646)                          -         (79,248)                  -

Ending Balances                              $       (8,672) $              150,317 $               (474) $        128,336




               The accompanying notes to the principal statements are an integral part of this statement.


                                                            28
U.S. Nuclear Regulatory Commission                                                           Principal Statements


STATEMENT OF BUDGETARY RESOURCES
(Dollars in Thousands)

For the year ended September 30,                                                                2003             2002

Budgetary Resources
Budget authority
   Appropriations received                                                                  $   560,084      $   535,430
   Net transfers                                                                                 24,738           23,650
Unobligated balances
   Beginning of period                                                                            37,346          26,747
Spending authority from offsetting collections
   Reimbursements earned                                                                          5,337            5,845
   Change in unfilled customer orders                                                             2,928              201
       Total Spending Authority from Offsetting Collections                                       8,265            6,046
Recoveries of prior year obligations                                                              7,386            4,634
Permanently not available                                                                          (219)            (430)
      Total Budgetary Resources                                                             $   637,600      $   596,077

Status of Budgetary Resources
Obligations incurred (Note 12)
   Direct                                                                                   $   590,978      $   553,083
   Reimbursable                                                                                   6,050            5,648
Unobligated balance
   Apportioned                                                                                   39,812           36,179
   Exempt from apportionment                                                                        760            1,167
       Total Status of Budgetary Resources                                                  $   637,600      $   596,077


Relationship of Obligations to Outlays
Obligated balance, net, beginning of period                                                 $   136,899      $   104,988
Obligated balance, net, end of period
   Accounts receivable                                                                             (598)            (539)
   Unfilled customer orders from Federal sources                                                 (8,028)          (1,788)
   Undelivered orders                                                                           110,082           88,346
   Accounts payable                                                                              37,767           50,880
      Obligated balance, net, end of period                                                 $   139,223      $   136,899
Outlays
   Disbursements                                                                            $  581,020       $    522,314
   Collections                                                                                  (6,677)            (6,175)
      Subtotal                                                                                 574,343            516,139
Less: Offsetting Receipts                                                                     (526,273)          (475,965)
        Net Outlays                                                                         $   48,070       $     40,174




                The accompanying notes to the principal statements are an integral part of this statement.


                                                           29
U.S. Nuclear Regulatory Commission                                                               Principal Statements


STATEMENT OF FINANCING
(Dollars in Thousands)

For the year ended September 30,                                                                  2003             2002

Resources Used to Finance Activities

Budgetary Resources Obligated
  Obligations incurred (Note 12)                                                             $     597,028     $    558,731
  Less: Spending authority from offsetting collections and recoveries                              (15,651)         (10,680)
       Obligations Net of Offsetting Collections and Recoveries                                    581,377          548,051
  Less: Offsetting receipts                                                                       (526,273)        (475,965)
         Net Obligations                                                                            55,104           72,086

Other Resources
  Imputed financing from costs absorbed by others                                                   21,978           18,780
  Allocation transfer                                                                                1,576            3,375
  Other                                                                                             (5,294)           8,333
          Net Other Resources Used to Finance Activities                                            18,260           30,488

          Total Resources Used to Finance Activities                                                73,364          102,574

Resources Used to Finance Items not Part of the Net Cost of Operations

   Change in budgetary resources obligated for goods,
    services and benefits ordered but not yet provided                                             (17,916)         (30,493)
   Resources that finance the acquisition of assets                                                 (4,106)          (2,476)
   Other                                                                                               592              364
         Total Resources Used to Finance Items not Part of the Net
          Cost of Operations                                                                       (21,430)         (32,605)
         Total Resources Used to Finance the Net Cost of Operations                                 51,934           69,969

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period

    Components Requiring or Generating Resources in the Future Periods
       Increase in annual leave liability                                                            1,692            1,870
       Increase (Decrease) Actuarial Workers’ Compensation                                              11           (1,787)
       Increase (Decrease) in Unfunded Workers Compensation                                           (163)              28
       Increase in Unfunded Unemployment                                                                 7               22
       Total Components of Net Cost of Operations that will Require
         or Generate Resources in Future Periods                                                     1,547                133

    Components not Requiring or Generating Resources:
       Depreciation and amortization                                                                10,165            9,146
       Total Components not Requiring or Generating Resources                                       10,165            9,146

        Total Components of Net Cost of Operations that will
        not Require or Generate Resources in the Current Period                                     11,712            9,279

Net Cost of Operations                                                                       $      63,646     $     79,248



                  The accompanying notes to the principal statements are an integral part of this statement.


                                                             30
U.S. Nuclear Regulatory Commission                                             Principal Statements

                              NOTES TO PRINCIPAL STATEMENTS


NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A.   Reporting Entity

     The U.S. Nuclear Regulatory Commission (NRC) is an independent regulatory agency of the
     Federal Government that was created by the U.S. Congress to regulate the Nation’s civilian use of
     byproduct, source, and special nuclear materials to ensure adequate protection of the public health
     and safety, to promote the common defense and security, and to protect the environment. Its
     purposes are defined by the Energy Reorganization Act of 1974, as amended, along with the
     Atomic Energy Act of 1954, as amended, which provide the foundation for regulating the Nation’s
     civilian use of nuclear materials.

     The NRC operates through the execution of its congressionally approved appropriations for salaries
     and expenses and the Inspector General, including funds derived from the Nuclear Waste Fund. In
     addition, transfer appropriations are provided by the U.S. Agency for International Development for
     the development of nuclear safety and regulatory authorities in Russia, Ukraine, Kazakhstan, and
     Armenia for the independent oversight of nuclear reactors in these countries.

B.   Basis of Presentation

     These principal statements were prepared to report the financial position and results of operations
     of the NRC as required by the Chief Financial Officers Act of 1990 and the Government
     Management Reform Act of 1994. These financial statements were prepared from the books and
     records of the NRC in conformity with accounting principles generally accepted in the United States
     of America, the requirements of Office of Management and Budget (OMB) Bulletin No. 01-09, Form
     and Content of Agency Financial Statements, and NRC accounting policies. These statements are,
     therefore, different from the financial reports, also prepared by the NRC pursuant to OMB
     directives, which are used to monitor and control NRC's use of budgetary resources.

     In accordance with OMB Bulletin 01-09, NRC made several changes to its principal financial
     statements and notes. Certain amounts were reclassified from FY 2002 to conform with the FY
     2003 financial statement presentation. NRC has not prepared a Statement of Custodial Activity
     because the amounts involved are immaterial and are incidental to its operations and mission.

     The strategic arenas as presented on the Statement of Net Cost are based on the strategic plans
     and are described as follows:

            Nuclear Reactor Safety which encompasses all NRC efforts to ensure that civilian nuclear
            power reactor facilities, as well as test and research reactors, are operated in a manner that
            adequately protects public health and safety and the environment, and that safeguards
            special nuclear materials used in reactors.

            Nuclear Materials Safety which encompasses NRC efforts to ensure that nuclear fuel
            cycle facilities; and academic, industrial, and medical uses of nuclear materials are handled
            in a manner that adequately protects public health and safety and the environment, and
            protects against radiological sabotage and theft or diversion of special nuclear materials.




                                                   31
U.S. Nuclear Regulatory Commission                                             Principal Statements

                              NOTES TO PRINCIPAL STATEMENTS


           Nuclear Waste Safety which encompasses NRC efforts to ensure that the
           decommissioning of nuclear reactors and other facilities, storage of spent nuclear fuel,
           transportation of radioactive materials, and disposal of radioactive wastes are handled in a
           manner that adequately protects public heath and safety and the environment, and protects
           against radiological sabotage and theft or diversion of special nuclear materials.

           International Nuclear Safety Support which encompasses international nuclear safety
           and regulatory policy formulation, import-export licensing for nuclear materials and
           equipment, treaty implementation, and international information exchange.

C.   Budgets and Budgetary Accounting

     Budgetary accounting measures appropriation and consumption of budget/spending authority or
     other budgetary resources and facilitates compliance with legal constraints and controls over the
     use of Federal funds. Under budgetary reporting principles, budgetary resources are consumed at
     the time of purchase. Assets and liabilities, which do not consume current budgetary resources,
     are not reported, and only those liabilities for which valid obligations have been established are
     considered to consume budgetary resources.

     For the past 29 years, Congress has enacted no-year appropriations, which are available for
     obligation by NRC until expended. The Energy and Water Development Appropriations Act, 2003,
     requires the NRC to recover approximately 94 percent of its new budget authority of $584.6 million
     by assessing fees less amounts derived from the Nuclear Waste Fund of $24.7 million. The
     $584.6 million does not include any amounts transferred from the U.S. Agency for International
     Development. For FY 2002, NRC recovered approximately 96 percent of its new budget authority
     of $558.6 million less amounts derived from the Nuclear Waste Fund of $23.7 million and $36
     million received from Homeland Security.

D.   Basis of Accounting

     Transactions are recorded on an accrual accounting basis. Under the accrual method, revenues
     are recognized when earned and expenses are recognized when a liability is incurred, without
     regard to receipt or payment of cash. Interest on borrowings of the U.S. Treasury is not included
     as a cost to NRC’s programs and is not included in the accompanying financial statements.

E.   Revenues and Other Financing Sources

     The NRC is required to offset its appropriations by the amount of revenues received during the
     fiscal year by assessing fees. The NRC assesses two types of fees to recover its budget
     authority: (1) fees assessed under 10 Code of Federal Regulations (CFR) Part 170 for licensing,
     inspection, and other services under the authority of the Independent Offices Appropriation Act of
     1952 to recover the NRC’s costs of providing individually identifiable services to specific applicants
     and licensees; and (2) annual fees assessed for nuclear facilities and materials licensees under
     10 CFR Part 171. All fees, with the exception of civil penalties, are exchange revenues in
     accordance with Statement of Federal Financial Accounting Standards No. 7, Accounting for
     Revenue and Other Financing Sources and Concepts for Reconciling Budgetary and Financial
     Accounting.

                                                   32
U.S. Nuclear Regulatory Commission                                             Principal Statements

                              NOTES TO PRINCIPAL STATEMENTS


     For accounting purposes, appropriations are recognized as financing sources (appropriations
     used) at the time expenses are accrued. At the end of the fiscal year, appropriations recognized
     are reduced by the amount of assessed fees collected during the fiscal year to the extent of new
     budget authority for the year. Collections which exceed the new budget authority are held to offset
     subsequent years' appropriations. Appropriations expended for property and equipment are
     recognized as expenses when the asset is consumed in operations (depreciation and
     amortization).

F.   Fund Balances with Treasury and Cash and Other Monetary Assets

     The NRC’s cash receipts and disbursements are processed by the U.S. Treasury. The fund
     balances with the U.S. Treasury and cash are primarily appropriated funds that are available to
     pay current liabilities and to finance authorized purchase commitments. Funds with Treasury
     represent NRC's right to draw on the U.S. Treasury for allowable expenditures. All amounts are
     available to NRC for current use. Cash balances held outside the U.S. Treasury are not material.

G.   Accounts Receivable

     Accounts receivable consist of amounts owed to the NRC by other Federal agencies and the
     public. Amounts due from the public are presented net of an allowance for uncollectible accounts.
     The allowance is based on an analysis of the outstanding balances. Receivables from Federal
     agencies are expected to be collected; therefore, there is no allowance for uncollectible accounts.

H.   Non-Entity Assets

     Accounts receivable include non-entity assets of $44,000 and $27,000 at September 30, 2003,
     and 2002, respectively, and consist of miscellaneous penalties and interest due from the public,
     which, when collected, must be transferred to the U.S. Treasury.

I.   Property and Equipment

     Property and equipment consist primarily of typical office furnishings, nuclear reactor simulators,
     and computer hardware and software. The agency has no real property. The land and buildings
     in which NRC operates are provided by the General Services Administration (GSA), which charges
     NRC rent that approximates the commercial rental rates for similar properties.

     Property with a cost of $50,000 or more per unit and a useful life of 2 years or more is capitalized
     at cost and depreciated using the straight-line method over the useful life. Other property items
     are expensed when purchased. Normal repairs and maintenance are charged to expense as
     incurred.

     The costs of internal use software, including the full cost of salaries and benefits from agency
     personnel involved in software development, are capitalized in accordance with the above criteria.




                                                   33
U.S. Nuclear Regulatory Commission                                             Principal Statements

                              NOTES TO PRINCIPAL STATEMENTS


J.   Accounts Payable

     Accounts payable represent vendor invoices for services received by NRC that will be paid at a
     later date.

K.   Liabilities Not Covered by Budgetary Resources

     Liabilities represent the amount of monies or other resources that are likely to be paid by NRC as
     the result of a transaction or event that has already occurred. No liability can be paid by NRC
     absent an appropriation. Liabilities for which an appropriation has not been enacted and for which
     there is no certainty that an appropriation will be enacted are classified as Liabilities Not Covered
     by Budgetary Resources. Also, NRC liabilities arising from sources other than contracts can be
     abrogated by the Government acting in its sovereign capacity.

     Intragovernmental

     The U.S. Department of Labor (DOL) paid Federal Employees Compensation Act (FECA) benefits
     on behalf of NRC which had not been billed or paid by NRC as of September 30, 2003, and 2002,
     respectively.

     Federal Employee Benefits

     Federal employee benefits represent the actuarial liability for estimated future FECA disability
     benefits. The future workers’ compensation estimate was generated by DOL from an application
     of actuarial procedures developed to estimate the liability for FECA, which includes the expected
     liability for death, disability, medical, and miscellaneous costs for approved compensation cases.
     The liability was calculated using historical benefit payment patterns related to a specific incurred
     period to predict the ultimate payments related to that period. These projected annual benefit
     payments were discounted to present value. The interest rate assumptions utilized for discounting
     benefits were 3.84 percent for FY 2003 and 5.20 percent for FY 2002.

     Other

     Accrued annual leave represents the amount of annual leave earned by NRC employees but not
     yet taken.

L.   Contingencies

     Contingent liabilities are those where the existence or amount of the liability cannot be determined
     with certainty pending the outcome of future events. The NRC is a party to various administrative
     proceedings, legal actions, environmental suits, and claims brought by or against it. Based on the
     advice of legal counsel concerning contingencies, it is the opinion of management that the ultimate
     resolution of these proceedings, actions, suits, and claims will not materially affect the agency’s
     financial statements.




                                                   34
U.S. Nuclear Regulatory Commission                                             Principal Statements

                              NOTES TO PRINCIPAL STATEMENTS


M.   Annual, Sick, and Other Leave

     Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year,
     the balance in the accrued annual leave liability account is adjusted to reflect current pay rates.
     To the extent that current or prior year funding is not available to cover annual leave earned but
     not taken, funding will be obtained from future financing sources. Sick leave and other types of
     nonvested leave are expensed as taken.

N.   Retirement Plans

     NRC employees belong to either the Federal Employees Retirement System (FERS) or the Civil
     Service Retirement System (CSRS). For FY 2003 and FY 2002, employees belonging to FERS,
     the NRC withheld 0.8 percent of base pay earnings, in addition to Federal Insurance Contribution
     Act (FICA) withholdings, and matched the withholdings with a 10.7 percent contribution. The sum
     is transferred to the Federal Employees Retirement Fund. For employees covered by CSRS, NRC
     withholds 7 percent of base pay earnings. The NRC matched this withholding with a 7.0 percent in
     FY 2003 and an 8.51 percent contribution in FY 2002.

     The Thrift Savings Plan (TSP) is a retirement savings and investment plan for employees
     belonging to either FERS or CSRS. For employees belonging to FERS, NRC automatically
     contributes one percent of base pay to their account and matches contributions up to an additional
     four percent. The maximum percentage of base pay that an employee participating in FERS may
     contribute is 13 percent in calendar year (CY) 2003, and 12 percent in CY 2002. Employees
     belonging to CSRS may contribute up to 8 percent of their salary in CY 2003, and 7 percent in CY
     2002, but there is no NRC matching of the contribution. The maximum amount that either FERS
     or CSRS employees may contribute to the plan is $12,000 in the CY 2003 portion of FY 2002 and
     $11,000 in the CY 2002 portion of FY 2003. The sum of the employees’ and NRC’s contributions
     are transferred to the Federal Retirement Thrift Investment Board.

     The NRC does not report on its financial statements FERS and CSRS assets, accumulated plan
     benefits, or unfunded liabilities, if any, applicable to its employees. Reporting such amounts is the
     responsibility of the U.S. Office of Personnel Management. The portion of the current and
     estimated future outlays for CSRS not paid by NRC is, in accordance with Statement of Federal
     Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal Government,
     included in NRC’s financial statements as an imputed financing source.

O.   Leases

     The total capital lease liability is funded on an annual basis and included in NRC’s annual budget.
     The NRC’s capital leases are for personal property consisting of reproduction equipment which is
     installed in various NRC facilities. For FY 2003 and 2002 the leases were for 3 and 5 years and
     the interest rates paid were 6.59 percent and 4.75 percent, respectively. During FY 2004, the
     remaining capital lease (3 years at 6.59 percent) will be completed. The reproduction equipment
     is depreciated over 5 years using the straight-line method with no salvage value.




                                                   35
U.S. Nuclear Regulatory Commission                                            Principal Statements

                             NOTES TO PRINCIPAL STATEMENTS


     Operating leases consist of real property leases with GSA. The leases are for NRC’s
     headquarters and regional offices. The GSA charges NRC lease rates which approximate
     commercial rates for comparable space.

P.   U.S. Department of Energy Charges

     Financial transactions between the Department of Energy (DOE) and NRC are fully automated
     through the U.S. Treasury's Intra-governmental Payment and Collection (IPAC) System. The
     IPAC System allows DOE to collect amounts due from NRC directly from NRC's account at the
     U.S. Treasury for goods and/or services rendered. Project manager verification of goods and/or
     services received is subsequently accomplished through a system-generated voucher approval
     process. The vouchers are returned to the Office of the Chief Financial Officer documenting that
     the charges have been accepted.

Q.   Pricing Policy

     The NRC provides goods and services to the public and other Government entities. In
     accordance with OMB Circular No. A-25, User Charges, and the Independent Offices
     Appropriation Act of 1952, NRC assesses fees under 10 CFR Part 170 for licensing and inspection
     activities to recover the full cost of providing individually identifiable services.

     The NRC’s policy is to recover the full cost of goods and services provided to other Government
     entities where: (1) the services performed are not part of its statutory mission and (2) NRC has
     not received appropriations for those services. Fees for reimbursable work are assessed at the 10
     CFR Part 170 rate with minor exceptions for programs that are nominal activities of the NRC.



     The NRC’s net position consists of unexpended appropriations and cumulative results of
     operations. Unexpended appropriations represent appropriated spending authority that is
     unobligated and has not been withdrawn by Treasury, and obligations that have not been paid.
     Cumulative results of operations represent the excess of financing sources over expenses since
     inception.

S.   Use of Management Estimates

     The preparation of the accompanying financial statements in accordance with generally accepted
     accounting principles requires management to make certain estimates and assumptions that
     directly affect the results of reported assets, liabilities, revenues, and expenses. Actual results
     could differ from these estimates.




                                                  36
U.S. Nuclear Regulatory Commission                                            Principal Statements

                               NOTES TO PRINCIPAL STATEMENTS


NOTE 2. FUND BALANCES WITH TREASURY

  (In thousands)                                                                   2003           2002
  Fund Balances
  Appropriated funds                                                           $   184,487    $ 174,226
  Allocation transfers                                                               5,183        6,941
  Other fund types                                                                   3,750          282
      Total                                                                    $   193,420    $ 181,449
  Status of Fund Balance with Treasury
  Unobligated Balance
    Available
       Appropriated funds                                                      $    40,572    $  37,346
       Allocation transfers                                                          2,948        1,809
    Unavailable                                                                      4,063          612
  Obligated balance not yet disbursed                                              145,837      141,682
     Total                                                                     $   193,420    $ 181,449
NOTE 3. ACCOUNTS RECEIVABLE

  (In thousands)                                                                   2003           2002
  Intragovernmental
  Receivables and reimbursements                                               $     2,667    $    2,031


  Receivables with the Public
  Materials and facilities fees - billed                                       $     4,657    $    4,166
  Materials and facilities fees - unbilled                                          45,607        41,185
  Other (Penalties and Interest)                                                       110            94
     Total Accounts Receivable                                                      50,374        45,445
  Less: Allowance for uncollectible accounts                                        (2,811)       (2,671)
     Accounts Receivable, Net                                                  $    47,563    $   42,774

NOTE 4. PROPERTY AND EQUIPMENT, NET

 (In thousands)
                                                              Accumulated
                                                              Depreciation         2003         2002
                                      Service   Acquisition       and            Net Book      Net Book
        Fixed Assets Class             Years      Value       Amortization        Value         Value
Equipment                               5-8     $   15,891    $    (14,129)    $      1,762   $    1,996
ADP software                             5          40,961         (25,651)          15,310      23,718
ADP software under development           -            2,318               -           2,318          390
Leasehold improvements                  20          20,294         (10,141)          10,153      10,703
Leasehold improvements in progress                       79               -              79          115
                                                $   79,543    $    (49,921)    $     29,622   $ 36,922




                                                   37
U.S. Nuclear Regulatory Commission                                                  Principal Statements

                                  NOTES TO PRINCIPAL STATEMENTS


NOTE 5. OTHER LIABILITIES


 (In thousands)                                                                              2003           2002
 Intragovernmental
 Liability to offset net accounts receivable for fees assessed                       $        49,492   $    44,177
 Liability from fees collected which will offset subsequent year’s appropriations              3,590             -
 Liability to offset miscellaneous accounts receivable                                            42            27
 Liability for advances from other agencies                                                    1,222           845
 Accrued workers' compensation                                                                 1,646         1,809
 Accrued unemployment compensation                                                                29            22
 Employee benefit contributions                                                                1,063         2,277
     Total Intragovernmental Other Liabilities                                       $        57,084   $    49,157

The liability to offset the net accounts receivable for fees assessed represents amounts which, when
collected, will be transferred to the U.S. Treasury to offset NRC's appropriations in the year collected.

 (In thousands)                                                                            2003          2002
 Accrued annual leave                                                                    $ 30,035      $ 28,343
 Accrued salaries                                                                           8,138        18,092
 Contract holdbacks, advances, and other                                                    2,933         3,434
    Total Other Liabilities                                                              $ 41,106      $ 49,869

Other liabilities, except accrued annual leave, contract holdbacks, and advances from others, are
current.

            LIABILITIES NOT COVERED BY BUDGETARY RESOURCES


   (In thousands)                                                                            2003           2002
  Intragovernmental
      FECA paid by DOL                                                                   $    1,646        $ 1,809
      Accrued unemployment compensation                                                          29             22
  Federal Employee Benefits
      Future FECA                                                                             9,073          9,062
  Other
      Accrued annual leave                                                                 30,035        28,343
         Total Liabilities not Covered by Budgetary Resources                            $ 40,783      $ 39,236




                                                          38
U.S. Nuclear Regulatory Commission                                                   Principal Statements

                                 NOTES TO PRINCIPAL STATEMENTS


NOTE 7. LEASES


 (In thousands)
 Future Lease Payments Due:
                                                                                           2003       2002
                                 Fiscal Year              Capital       Operating
                                            2003      $         -   $            -     $      -     $ 20,493
                                            2004                2           20,505       20,507       20,507
                                            2005                -           20,372       20,372       20,372
                                            2006                -           19,560       19,560       19,560
                                            2007                -           19,603       19,603       19,603
                               2008 and thereafter              -          111,600      111,600      112,891
                                             Total              2          191,640      191,642      213,426
 Less: imputed interest                                                          -            -           (2)
    Total Future Lease Payments                       $         2   $      191,640     $191,642     $213,424


          CUMULATIVE RESULTS OF OPERATIONS

 (In thousands)                                                                           2003         2002
 Future funding requirements                                                           $ (40,783)   $ (39,236)
 Investment in property and equipment, net                                                29,622       36,922
 Contributions from foreign cooperative research agreements                                2,481        1,819
 Other                                                                                         8           21
     Cumulative Results of Operations                                                  $ (8,672)    $    (474)
Future funding requirements represent the amount of future funding needed to pay the accrued
unfunded expenses as of September 30, 2003, and 2002. These accruals are not funded from current or
prior-year appropriations and assessments, but rather should be funded from future appropriations and
assessments. Accordingly, future funding requirements have been recognized for the expenses that will
be paid from future appropriations.

NOTE 9. EXCHANGE REVENUES


 (In thousands)                                                                          2003         2002
 Fees for licensing, inspection, and other services                                    $531,567     $467,632
 Revenue from reimbursable work                                                           5,915        5,480
     Total Exchange Revenues                                                           $537,482     $473,112




                                                      39
U.S. Nuclear Regulatory Commission                                                      Principal Statements

                                  NOTES TO PRINCIPAL STATEMENTS


NOTE 10. BUDGET FUNCTIONAL CLASSIFICATION


  (In thousands)                                                                              2003        2002
                                                                            Earned
  Functional Classification                                Gross Cost      Revenue        Net Cost     Net Cost
  276 - Energy Information, Policy, & Regulation           $ 596,788      $ 537,411       $ 59,377    $ 76,707
  150 - AID International Affairs                               4,340             71         4,269       2,541
     Total                                                 $ 601,128      $ 537,482       $ 63,646    $ 79,248

  Intragovernmental
                                                                                              2003        2002
                                                                             Earned
  Functional Classification                                Gross Cost       Revenue       Net Cost     Net Cost
  276 - Energy Information, Policy, & Regulation           $ 168,685      $    32,659     $136,026    $119,280
  150 - AID International Affairs                               4,340              71        4,269       2,541
     Total                                                 $ 173,025      $    32,730     $140,295    $121,821


             FINANCING SOURCES OTHER THAN EXCHANGE REVENUE

(In thousands)
Appropriated Funds Used

Collections were used to reduce the fiscal year's appropriations recognized:

                                                                                            2003        2002
  Funds consumed                                                                          $565,037    $520,933
  Less: collection from fees assessed                                                     (526,273)   (475,965)
     Appropriated funds used                                                              $ 38,764    $ 44,968

Funds consumed includes $39,767 thousand and $26,747 thousand through September 30, 2003, and
2002, respectively, of available funds from prior years.

Non-Exchange Revenue

                                                                                            2003       2002
         Civil penalties                                                                  $    353    $   453
         Miscellaneous receipts                                                                271        901
            Total Non-Exchange Revenue                                                    $    624    $ 1,354

The miscellaneous receipts received during FY 2002 included approximately $554 thousand received
from the Trust Estate of the Moab Mill Reclamation Trust Agreement. The receipts resulted from an
agreement between the State of Utah and NRC where it was agreed that each party would receive 50
percent of the proceeds from the trust.




                                                         40
U.S. Nuclear Regulatory Commission                                         Principal Statements

                                NOTES TO PRINCIPAL STATEMENTS


Imputed Financing

                                                                                2003         2002
        Civil Service Retirement System                                       $ 11,588     $  9,934
        Federal Employee Health Benefit                                          9,832        8,788
        Federal Employee Group Life Insurance                                       53           49
        U.S. Treasury Judgment Fund                                                505            9
           Total Imputed Financing                                            $ 21,978     $ 18,780

Transfers In/Out

                                                                                 2003          2002
        Transfers out to Treasury
          License Fees                                                        $526,273     $ 475,965
          Non-exchange revenue                                                     624         1,354
            Total Transfers-Out to Treasury                                   $526,897     $ 477,319


NOTE 12. TOTAL OBLIGATIONS INCURRED

  (In thousands)
                                                                                 2003          2002
           Direct Obligations
            Category A                                                        $565,784     $ 529,517
            Exempt from Apportionment                                           25,194        23,566
              Total Direct Obligations                                         590,978       553,083
           Reimbursable Obligations                                              6,050         5,648
              Total Obligations Incurred                                      $597,028     $ 558,731


Obligations exempt from apportionment are the result of funds derived from the Nuclear Waste Fund.
Category A Obligations consist of NRC appropriations only.




                                                 41
REQUIRED SUPPLEMENTARY INFORMATION
U.S. Nuclear Regulatory Commission Required Supplementary Information

SCHEDULE OF INTRAGOVERNMENTAL ASSETS AND LIABILITIES

    (Dollars in Thousands)
    As of September 30,                                     2003         2002
    Intragovernmental Assets
         Fund Balance with Treasury
          Department of the Treasury                    $ 193,420    $ 181,449
        Accounts Receivable
           Tennessee Valley Authority                        1,844        1,197
           Department of Energy                                600          412
           Other Agencies                                      223          422
             Total Accounts Receivable                       2,667        2,031
        Other Assets
           General Services Administration                     487          520
           Department of Commerce                              227          360
           Department of Interior                              664            1
           Department of the Navy                            1,495           19
           Department of Labor                                  42          204
           Other Agencies                                       18           37
             Total Other Agencies                            2,933        1,141

                Total Intragovernmental Assets          $ 199,020    $ 184,621




   As of September 30,                                      2003         2002
   Intragovernmental Liabilities
        Accounts Payable
           General Services Administration              $      953   $     3,157
           Department of Energy                              5,851         4,500
           Other Agencies                                      595           754
               Total Accounts Payable                        7,399         8,411
        Other Liabilities
           Department of the Treasury - General Fund        53,082        44,177
           Department of Labor                               1,675         1,831
           Office of Personnel Management                    1,063         2,277
           Other Agencies                                    1,264           872
               Total Other Liabilities                      57,084        49,157

                Total Intragovernmental Liabilities     $ 64,483     $    57,568




                                                   43
U.S. Nuclear Regulatory Commission Required Supplementary Information

SCHEDULE OF BUDGETARY RESOURCES
(Dollars in Thousands)

   For the year ended September 30, 2003
                                                                   X0200        X0300        Total
   Budgetary Resources
   Budget authority
      Appropriations received                                     $ 553,284 $    6,800   $   560,084
      Net transfers                                                  24,738          -        24,738
   Unobligated balances
      Beginning of period                                           36,411        935         37,346
   Spending authority from offsetting collections
      Reimbursements earned                                           5,336          1         5,337
      Change in unfilled customer orders                              2,928          -         2,928
           Total Spending Authority from Offsetting Collections       8,264          1         8,265
   Recoveries of prior year obligations                               7,382          4         7,386
   Permanently not available                                           (216)        (3)         (219)
          Total Budgetary Resources                               $ 629,863 $    7,737 $     637,600

   Status of Budgetary Resources:
   Obligations incurred
       Direct                                                     $ 584,462 $    6,516   $   590,978
       Reimbursable                                                   6,050          -         6,050
   Unobligated balance
       Apportioned                                                   38,591      1,221        39,812
       Exempt from apportionment                                        760                      760
           Total Status of Budgetary Resources                    $ 629,863 $    7,737   $   637,600

   Relationship of Obligations to Outlays:
       Obligated balance, net, beginning of period                $ 135,968 $     931    $   136,899
       Obligated balance, net, end of period:
          Accounts receivable                                          (597)        (1)         (598)
          Unfilled customer orders from Federal sources              (8,028)          -       (8,028)
          Undelivered orders                                        109,304        778       110,082
          Accounts payable                                           37,472        295        37,767
          Obligated balance, net , end of period                  $ 138,151 $    1,072 $     139,223

   Outlays:
         Disbursements                                            $ 574,637 $    6,383 $      581,020
         Collections                                                 (6,665)       (12)        (6,677)
         Subtotal                                                   567,972      6,371        574,343
   Less: Offsetting receipts                                       (526,273)          -      (526,273)
          Net Outlays                                             $ 41,699 $     6,371 $       48,070




                                                       44
45
S. D. Dingbaum                                -2-


Response

Agree. The CFO will modify its current procedures for monitoring approved software
development projects to ensure more proactive monitoring and training of project managers
and monitoring of accounting activities. Revised procedures will be issued by
January 15, 2004.

Recommendation 3

The CFO should sustain the management controls over cost accounting with the same focus
demonstrated at year-end. As the cost accounting processes become more routine,
refinements may be needed. For example, effective in FY 2004, quarterly reports will be
required 21 days after the quarter’s end, thus necessitating the current process to produce cost
accounting information for financial reporting sooner. We believe that continued senior
management attention will yield additional benefits in future periods.

Response

Agree.

cc:   D. Galik, OCIO
      W. Dean, AO/OEDO
      M. Malloy, OEDO
      P. Tressler, OEDO




                                               46
